2005 Government in the Sunshine Act




      National Science Foundation
      Office of Inspector General


           February 15, 2006
             OIG 06-2-010
Introduction
Background              The National Science Board (Board) is the governing entity
                        of the National Science Foundation (NSF), an independent
                        Federal agency established by the National Science
                        Foundation Act of 1950. The Board is composed of 24 part-
                        time, Presidentially appointed members, and the NSF
                        Director, who are selected on the basis of their eminence in
                        research or public affairs.

                        The Board has responsibility for providing national science
                        policy advice to the President and to the Congress and for
                        acting as the governing board of the NSF. The Board
                        conducts its business during two-day meetings, which are
                        generally held five to six times a year. Much of the Board’s
                        analysis and background work in preparation for Board
                        discussion and action is done through its committees.

                        Currently, the Board has five standing committees:
                        Executive, Audit and Oversight, Education and Human
                        Resources, Programs and Plans, and Strategy and Budget.
                        These committees, and other subcommittees and task
                        forces, generally meet during the same two-day period as
                        the full Board. In addition, the committees occasionally meet
                        at other times throughout the year on an as-needed basis.

The Government in the   In the early 1970s, partially in response to the Watergate
Sunshine Act            scandal, Congress enacted the Government in the Sunshine
                        Act along with other anti-secrecy legislation. Congress
                        intended the Sunshine Act to open the government’s
                        deliberation processes to public scrutiny.

                        The Act applies to agencies “headed by a collegial body
                        composed of two or more individual members . . . and any
                        subdivision thereof authorized to act on behalf of the
                        agency,”1 and covers some 50 Federal agencies, including
                        the National Science Board. The Act requires that “every
                        portion of every meeting of an agency shall be open to public
                        observation”2 with ten narrow exemptions for discussions of
                        material that are likely to disclose:

                                  (1) National Defense and foreign policy;
                                  (2) Internal personnel rules and practices;

                        1
                            5 U.S.C. §552b(a)(1) (2005).
                        2
                            Id. at §552b(b).


                                                                                Page 1 of 17
                                    (3) Statutory exemptions;
                                    (4) Proprietary information;
                                    (5) Accusation of crime or formal censure;
                                    (6) Personal privacy;
                                    (7) Investigatory records;
                                    (8) Financial institution reports;
                                    (9)(A) Financial speculation and stability;
                                    (9)(B) Frustration of proposed agency action; and
                                    (10) Issuance of subpoena, participation in civil action
                                    or proceeding, or formal agency adjudications.3

                         While the Act does not require an agency to hold meetings, it
                         does contain a number of procedural requirements that must
                         be followed when an agency decides to meet for either a
                         closed or open session. First, at least one week prior to
                         each meeting, the agency must make a public
                         announcement regarding the date, time, and place of the
                         meeting and whether the meeting is to be open or closed.

                         Additionally, to close all or a portion of a meeting, an agency
                         must vote to do so and make publicly available a written
                         copy of the vote and a “full written explanation of its action
                         closing the portion [of the meeting].”4 Also, for a closed
                         meeting, the agency’s General Counsel must publicly certify
                         that the meeting may be closed under one of the Act’s
                         exemptions. Finally, the agency must annually report to the
                         Congress: any changes in the agency’s policies and
                         procedures under the Act; a tabulation of the number of
                         meetings held, exemptions applied, and the days of public
                         notice provided; a brief description of litigation or formal
                         complaints concerning the implementation of the Act; and
                         any changes in law that have affected the open-meeting
                         responsibilities of the agency.

Open Meetings of the   In accordance with the Government in the Sunshine Act, the
National Science Board National Science Board has traditionally opened its full-
                       Board meetings to the public. However, prior to 2003, the
                       Board did not provide public access to the meetings of its
                       committees, subcommittees, taskforces, or other
                       subdivisions.

                         The NSF Authorization Act of 2002, which became effective
                         in December 2002, contained administrative amendments to
                         the National Science Foundation Act pertaining to Board

                         3
                             Id. at §552b(c).
                         4
                             Id. at §552b(d)(3).


                                                                                 Page 2 of 17
                    meetings. As part of these amendments, the Congress
                    specified that in addition to meetings of the full Board, “all of
                    its subcommittees, and task forces (and any other entity
                    consisting of members of the Board and reporting to the
                    Board) shall be subject to [the Sunshine Act].”5
                    Consequently, during 2003, the Board opened to the public
                    for the first time, its committee and other subdivision
                    meetings.

Audit Requirement   In keeping with its interest in seeing greater openness in
                    Board meetings, the Congress placed another requirement
                    in the NSF Authorization Act directing that the NSF Office of
                    Inspector General (OIG) “conduct an annual audit of the
                    compliance by the Board with [the Sunshine Act].”6 The
                    audit is “to examine the proposed and actual content of
                    closed meetings and determine whether the closure of the
                    meetings was consistent with [the Act].”7 In a report
                    submitted to the Congress by February 15th of each year,
                    the OIG is to make “recommendations for corrective actions
                    that need to be taken to achieve fuller compliance with [the
                    Sunshine Act] and recommendations on how to ensure
                    public access to the Board’s deliberations.”8

                    This is the third annual audit of the Board’s Sunshine Act
                    activities. Prior years’ audits found a clear intent on the part
                    of the Board to provide for greater access to and increased
                    openness in its meetings. With respect to the Board’s
                    decisions to close meetings, we found in the past two years
                    that the Board properly closed its meetings consistent with
                    the exemptions contained in the Sunshine Act. However, we
                    did note some challenges the Board faced in meeting the
                    Act’s numerous procedural requirements and recommended
                    that the Board develop and implement formal policies and
                    procedures that define the various participants’ roles and
                    responsibilities for complying with the Act’s numerous
                    procedural requirements. The Board agreed with the audit
                    findings of both prior audits.




                    5
                      Pub. L. No. 107-368 (2002).
                    6
                      Id.
                    7
                      Id.
                    8
                      Id.


                                                                          Page 3 of 17
Objectives, Scope, and Methodology

                 In keeping with the statutory audit requirement, the
                 objectives of our audit were to:

                    •   Determine whether the Board’s closures of meetings
                        were consistent with the exemptions contained in the
                        Government in the Sunshine Act; and

                    •   Determine whether the Board and its subdivisions are
                        in compliance with the procedural requirements of the
                        Government in the Sunshine Act.

                 Our audit covered meetings of the Board held during the
                 period January through December 2005. During this
                 timeframe, the Board conducted 98 separate meetings of
                 which 35, or 36 percent, were closed. For the purposes of
                 this audit, we counted each of the various committee,
                 subcommittee, and task force meetings separately, although
                 they typically occur during the same two-day time period.
                 Also, we considered a committee meeting with both an open
                 and closed portion on the same day as two separate
                 meetings: one open and one closed. However, we
                 considered a committee meeting that met for more than one
                 non-consecutive time frame during a single day, and was
                 either entirely open or entirely closed, as one meeting. For
                 example, an open Task Force on Polar Issues meeting from
                 1:00pm to 3:00pm, with a closed portion from 1:30pm to
                 2:00pm would count as two meetings. Likewise, an open
                 Education and Human Resources Committee meeting from
                 9:00am to 10:00am and again from 1:00pm to 2:00pm on the
                 same day, with no closed session, would count as one
                 meeting.

                 To determine whether the Board complied with the
                 procedural requirements of the Act, we met with agency
                 personnel, and gathered and reviewed documentation for all
                 meetings to determine whether the Board met the Act’s
                 requirements for public notice. For each of the 35 closed
                 meetings, we reviewed documentation to determine whether
                 the Board met the applicable Act requirements, including the
                 vote to close and General Counsel certification.




                                                                    Page 4 of 17
To determine whether the Board closed its meetings in
accordance with the Sunshine Act exemptions, we reviewed
a sample of 18 of the 35 closed-meeting transcripts and
compared them with meeting agendas, General Counsel
certifications, and the Board’s explanations for closing
meetings.

We conducted our work during December 2005 and January
2006 in accordance with generally accepted government
auditing standards.




                                              Page 5 of 17
Results of Audit
                   Contrary to the Sunshine Act’s presumption in favor of open
                   meetings, at the time it sets meeting agendas, the Board
                   appears to have included open agenda items in its closed
                   meetings. This occurred because the decision to include
                   agenda items in open or closed sessions necessarily is
                   made in advance of the actual meeting. However, because
                   of a lack of documentation, we are unable to determine
                   whether the Board properly applied the Sunshine Act’s
                   prospective standard when deciding upon closed meeting
                   agenda items. As a result, the public may be unable to fully
                   reap the benefits of the open government promised by the
                   Sunshine Act. As such, we recommend that the Board
                   develop, implement, and provide training on a process for
                   documenting the reason for placing each agenda item in a
                   closed meeting rather than an open meeting.

                   During 2005, the Board again experienced challenges in
                   meeting each of the procedural requirements of the
                   Sunshine Act. We have again attributed these procedural
                   challenges to the lack of formal policies and procedures that
                   were recommended in our two past audits. These policies
                   and procedures would help provide the Board with a
                   structure and protocol for handling the many Sunshine Act
                   issues that arise in the daily conduct of Board operations.
                   Without this structure and protocol, the Board will continue to
                   experience procedural inconsistencies such as inadequate
                   documentation of votes to close meetings and failure to
                   submit required reports. Consequently, we strongly reiterate
                   our previous recommendations that the Board develop,
                   implement, and provide training on such policies and
                   procedures.




                                                                       Page 6 of 17
Decisions to Close
Presumption in Favor   The overall presumption of the Sunshine Act is in favor of
of Open Meetings       open meetings. This is consistent with the Act’s underlying
                       policy that “the public is entitled to the fullest practicable
                       information regarding the decision-making processes of the
                       Federal Government.”9 However, the Sunshine Act
                       recognizes that circumstances exist in which public
                       disclosure of a particular matter may not be in the
                       government’s best interest. As such, the Act has built-in
                       exceptions to its open meeting requirement. Although the
                       starting point for any meeting is always openness, an
                       agency may10 choose to close a meeting if the discussion “is
                       likely” to disclose information contained in one of the Act’s
                       ten exemptions.11

                       The language of the Sunshine Act requiring open meetings
                       “is sweeping, unqualified, and mandatory.”12 Thus, the ten
                       exemptions are to be construed narrowly13 so that the
                       greatest amount of openness can be achieved. The
                       Sunshine Act envisions that agencies will engage in a two-
                       step process when deciding whether to close a meeting.
                       The agency must first make a determination whether the
                       expected discussion is likely to reveal information contained
                       in one of the Act’s exemptions.14 Second, the agency must




                       9
                         Pub. L. No. 94-409, 90 Stat. 1241, at §2 (1976).
                       10
                          “As with FOIA, the exemptions from the Sunshine Act are permissive,
                       not mandatory; an agency may close a meeting or any portion of a
                       meeting if it is protected by one of the exemptions. . .” The Government
                       in the Sunshine Act – An Overview, 1977 DUKE L. J. 565 (1977) (citations
                       omitted). The one exception to this is mandatory closure under
                       exemption three.
                       11
                          See 5 U.S.C. §552b(c) (2005).
                       12
                          Pacific Legal Fndn v. Council on Environmental Quality, 636 F.2d
                       1259, 1265 (D.C. Cir. 1980).
                       13
                          See, e.g., Common Cause v. Nuclear Regulatory Comm’n, 674 F.2d
                       921, 928 (D.C. Cir. 1982); see also H.R. REP. No. 94-880, pt. 1, at 3
                       (1976) (“In case of doubt as to whether a portion of a meeting is exempt,
                       the presumption is to be in favor of openness[,] . . . even if a matter falls
                       within an exemption.”).
                       14
                          “Congress rejected the approach of establishing “functional categories”
                       of agency business whose discussion could automatically be closed to
                       the public. Instead the Sunshine Act provides for an examination of
                       each item of business to ascertain whether it may be closed under
                       the terms of one of ten specific exemptions.” Common Cause, 674
                       F.2d at 932 (emphasis added).


                                                                                      Page 7 of 17
                      make a determination as to whether public interest requires
                      opening of the meeting even in the face of an exemption.15

Closed Agenda Items   During 2005, the Board closed 35, or 36 percent of its 98
Should Have Been      total meetings for reasons involving 8 of the 10 exemptions
Open                  contained in the Sunshine Act. Our review of a sample of 18
                      of the 35 closed meetings found many agenda item
                      discussions that did not appear to contain information that
                      met one of the Sunshine Act’s exemptions.

                      For example, in each of the Executive Committee meetings
                      that we reviewed, the agendas included the item “Specific
                      Personnel Matters.” The justification to close these items
                      was that such discussions “would be likely to constitute a
                      clearly unwarranted invasion of personal privacy.”16
                      However, our review of the closed meeting transcripts did
                      not reveal any discussions that “would be likely to constitute
                      a clearly unwarranted invasion of personal privacy.” The
                      discussions were of a very general nature and did not
                      provide personal information. When individual names were
                      used, it was in the context of announcing individuals who
                      had been appointed to particular management positions
                      within the Foundation and there was no invasion of personal
                      privacy. Consequently, it does not appear that any of the
                      actual discussions met the requirements of any Sunshine
                      Act exemptions.

                      As another example, the agenda for the August 10th closed
                      Committee on Programs and Plans meeting included the
                      single agenda item “Awards and Agreements.” The
                      justification to close this item was that such discussion would
                      be likely to: “disclose personal information and constitute a
                      clearly unwarranted invasion of privacy;”17 “disclose research
                      plans and other related information that are trade secrets,
                      and commercial or financial information obtained from a
                      person that are privileged or confidential;”18 and “prematurely
                      disclose the position of the NSF on the proposals in question


                      15
                          “In making this decision [to close a meeting], the agency must utilize a
                      balancing process to determine whether ‘the public good achieved by
                      opening the meeting out weighs the advantages to be gained by closing
                      it.’” Susan T. Stephenson, Government in the Sunshine Act: Opening
                      Federal Agency Meetings, 26 AM. U. L. REV. 154, 173 (1976-1977)
                      (quoting S. Rep No. 354, 94th Cong., 1st Sess. 20 (1975)).
                      16
                          See 5 U.S.C. §552b(c)(6) (2005).
                      17
                          See Id.
                      18
                          See Id. at §552b(c)(4).


                                                                                     Page 8 of 17
                       before final negotiations and any determination by the
                       Director to make the awards and so would be likely to
                       frustrate significantly the implementation of the proposed
                       Foundation action.”19 However, our review of the closed
                       meeting transcript revealed four separate discussions under
                       this “Awards and Agreements” agenda item, two of which did
                       not contain any clearly exempt information. Consequently, it
                       does not appear that these two discussions should have
                       been held during closed session.

                       Finally, the agenda for the August 10th closed Executive
                       Committee meeting included the item “Future Budgets.” The
                       justification to close this item was that such discussion
                       pertained to “future budgets not yet submitted by the
                       President to the Congress.”20 Our review of the closed
                       meeting transcript revealed that the actual discussion was of
                       “NSF’s intent to make a non-research award of $2 million to
                       the Human Frontier Science Program.” This was brought as
                       an information item to the Board and required no action.
                       The Foundation was simply stating its intent to make an
                       award. This is an award that NSF has made annually since
                       1993 and the current award was based on a July 2005
                       request for annual contribution from the Office of Science
                       and Technology Policy. We see nothing about this
                       discussion to indicate that it meets the “future budget”
                       exemption, or any other Sunshine Act exemption.

Evaluation of Agenda   Including open agenda items in a closed meeting occurred
Items Not Available    because the decision to include agenda items in open or
                       closed sessions necessarily is made in advance of the actual
                       meeting. The standard for closure in the Sunshine Act is
                       whether an upcoming discussion “is likely” to disclose
                       exempted information.21 This standard is to be applied
                       prospectively. However, there is no documentation to show
                       why certain agenda items were placed into closed session
                       rather than open. Without such documentation, we are
                       unable to determine whether the Board properly considered
                       the “is likely” standard when determining what agenda items
                       to include in closed session, and how the exemptions may
                       have applied. Consequently, we can only look at these
                       meetings with 20-20 hindsight and make a determination on

                       19
                          See id. at §552b(c)(9)(B).
                       20
                          The NSF Act contains a specific exemption for future budgets not yet
                       submitted to the Congress, 42 U.S.C. §1863(k) (2005), which falls within
                       the Sunshine Act’s statutory exemption, 5 U.S.C. §552b(c)(3) (2005).
                       21
                          5 U.S.C. at §552b(c) (2005).


                                                                                   Page 9 of 17
                  whether they were properly closed based solely on the
                  actual content of the discussions.

Board May Lack    In closing sessions that should otherwise be open, the Board
Openness and      may not be providing the public with the access intended
Transparency      under the Sunshine Act. In addition, when the Board
                  continues to conduct apparent non-exempt discussions
                  behind closed doors, there is a lack of transparency into
                  Board activities, which can create an appearance that the
                  Board is attempting to hide certain information.

Recommendations   In order to show that it is properly applying the “likely to”
                  standard for using a Sunshine Act exemption when including
                  an agenda item in closed session, we recommend that the
                  Executive Officer of the National Science Board:

                     •   Develop and implement a formal process for
                         determining and documenting the reason for placing
                         each specific agenda item in a closed meeting rather
                         than an open meeting. This should include the
                         exemption relied upon and how the proposed
                         discussion “is likely” to disclose information covered
                         by that exemption. Such documentation should occur
                         at a time when the agenda items have been
                         determined and enough information is available to
                         make an informed decision that is consistent with the
                         Sunshine Act’s overall presumption in favor of open
                         meetings. Additionally, this documentation process
                         should take into account the certification requirement
                         of the Sunshine Act so that the certification is based
                         upon actual agenda items and their justification for
                         being included in a closed meeting;

                     •   Provide in-depth and ongoing training to all affected
                         staff and Board members, both within the Board office
                         and NSF staff, on this documentation process. This
                         training should also cover Sunshine Act exemptions
                         applicable to the Board’s activities and their proper
                         application.




                                                                   Page 10 of 17
Procedural Compliance
More Consistent          The Sunshine Act is replete with detailed procedural
Compliance with          requirements that must be followed for both open and closed
Procedural               meetings. The Board is again continuing to experience
Requirements is          challenges and difficulties in ensuring that all of the various
Needed                   procedural requirements are met on a consistent basis.

Untimely Public Notice   The Sunshine Act requires the agency to publicly announce
                         the date, time, and place of a meeting, whether the meeting
                         is open or closed, and contact information should more
                         information be requested. The announcement is to be made
                         at least one week before the actual meeting date. In 73 of
                         its 98 meetings (74 percent), the Board met this requirement.
                         However, the Board experienced even greater difficulties in
                         meeting these requirements for ad hoc meetings (those that
                         did not occur during a regularly scheduled 2-day session).
                         Only 5 of the 11 (45 percent) ad hoc meetings were fully
                         compliant with the public notice requirements.

                         The most significant problem with public notice compliance
                         this year involves the Sunshine Act requirement that the
                         public notice include “the name and phone number of the
                         official designated by the agency to respond to requests for
                         information about the meeting.”22 Almost all of the web
                         notices for the 2005 meetings did not include proper contact
                         information. It was not until the November 22nd meeting that
                         this information was finally included in the web postings.
                         Consequently, the Board had to rely on its Federal Register
                         postings for full compliance. Unfortunately, the Federal
                         Register postings often are made later than the web postings
                         and do not always meet the “one week before the meeting”
                         requirement of the Sunshine Act. Had the contact
                         information been included in all of the web postings, the
                         Board would have been compliant with the public notice
                         requirement for 95 of its 98 meetings (97 percent).

Inconsistencies in       While the Board did conduct votes to close meetings, other
Complying with Voting    aspects of the voting requirement were not met.23 Out of the
Requirements             35 closed meetings in 2005, none were fully compliant with
                         all of the voting requirements. First, 21 of the 35 (60
                         percent) met the requirement that the vote be made public
                         22
                           5 USC §552b(e)(1) (2005).
                         23
                           This section of our report refers only to procedural compliance with the
                         voting requirements of the Sunshine Act. For a discussion of substantive
                         compliance related to votes to close meetings, see supra pp. 7-10.


                                                                                    Page 11 of 17
                           within 1 day. For the remaining 14, the Board either did not
                           make the vote public at all (3 ad hoc closed meetings), or
                           made the vote public more than 1 day after the vote (up to 5
                           days). For the 32 non ad hoc meetings for which the vote
                           was made public, the written copy of the vote did not reflect
                           the vote of each member on the question, as required by the
                           Sunshine Act.

Missing General Counsel For all of its closed meetings that occurred during regularly
Certifications          scheduled two-day sessions, the Board did comply with the
                        Sunshine Act requirement that the General Counsel certify
                        as to the reasons for closing the meetings. However, the
                        Board was unable to provide General Counsel certifications
                        for any of the three ad hoc closed meetings.

Failure to Submit Annual   The Sunshine Act requires the Board to submit an annual
Report to Congress         report to the Congress on certain aspects of its open
                           meeting activities, including a tabulation of the number of
                           meetings, the number of days of public notice given for each
                           closed meeting, and the exemptions applied to closed
                           meetings. However, the Board failed to prepare or submit
                           this required report during 2005.24

Procedural                 The purpose of the Sunshine Act is to open up the
Inconsistencies            government’s decision-making processes to the public. The
Restrict Openness          procedural aspects of the Sunshine Act are required in order
                           to provide full and accurate information on meeting activities.
                           When these requirements are not met, information is not
                           available. The public and other agency stakeholders may
                           not be fully aware of the details of Board meetings.

                           For example, if the public notice does not contain the proper
                           contact information, interested members of the public may
                           not be able to get the full information that they desire and
                           thus may not enjoy an open and transparent government.
                           When the Congress does not receive its annual report, it
                           remains uninformed as to an agency’s compliance with the
                           Sunshine Act and may be unable to adequately respond to
                           interested constituents about agency activities.




                           24
                              After we made the Board aware of this missing report, the Board Office
                           informed us that it submitted its report on 2004 activities in early 2006.


                                                                                      Page 12 of 17
Formalized Procedures We believe that many of these challenges and difficulties
Can Help Ensure       experienced by the Board in complying with the Sunshine
Compliance            Act are the result of a lack of formal policies and procedures.
                      In our 2003 and 2004 audits of the Board’s compliance with
                      the Act, we recommended that the Board develop such
                      formal policies and procedures in order to address these
                      procedural gaps in compliance. While the Board responded
                      positively to our audit recommendations and agreed to
                      develop and implement formal policies, the Board has thus
                      far failed to fully develop and implement this much-needed
                      guidance.

Current Efforts are       During 2005, the Board has begun some training on the
Insufficient              Sunshine Act. We reviewed the training materials provided
                          to us by the Board Office and while these materials do
                          provide good information on the Sunshine Act, they do not
                          constitute policies and procedures for Sunshine Act
                          compliance that will satisfy our prior audit recommendations.

                          The training materials consist of a slide presentation and
                          accompanying reference materials. These provide
                          background information on the Sunshine Act and its
                          purpose. They discuss the obligations of the Board under
                          the Act such as conducting meetings in public unless an
                          exemption applies. The materials also discuss instances
                          when the Act would not apply, such as notation voting, as
                          well as the substantive and procedural compliance aspects
                          of the Act. This is primarily a condensation of the Act’s
                          provisions. Finally, the materials define various roles related
                          to the Sunshine Act and contain supporting documents such
                          as the Sunshine Act, and the NSF Act.

                          While these training materials provide useful information on
                          the Sunshine Act and its requirements, they do not constitute
                          “formal policies and procedures to address compliance with
                          the procedural requirements of the Sunshine Act” as
                          recommended in our prior reports.

                          The purpose of the audit recommendation was to provide the
                          Board with an internal control over Sunshine Act compliance.
                          This was to provide a step-by-step method to help ensure
                          compliance. For example, the Board has had difficulty over
                          the past three years meeting the public notice requirements
                          of the Act, especially with respect to ad hoc meetings. The
                          policies and procedures should provide a mechanism for




                                                                             Page 13 of 17
complying with these requirements. This could consist of a
calendar and checklist. The calendar could include the
regularly scheduled meetings, which are determined during
the prior year, and ad hoc meetings could be added as
needed. The checklist could include all of the activities that
must take place in advance of a meeting. The Board Office
could then use the checklist in conjunction with the calendar
to work backwards to ensure having timely public notice.
For example, if a meeting is going to occur on Thursday,
March 16th, public notice must be made by March 9th. If it
then takes two days for the web notice to be posted by the
webmaster, the web notice must get to the webmaster by
March 7th and the Board Office should have it prepared by
Monday, March 6th. This may mean that the Executive
Secretaries of the various committees and subcommittees
need to submit their final agendas to the Board no later than
the prior week, in this example, by Wednesday, March 1st.

These policies and procedures need to explicitly spell out all
of the activities that must take place and who is responsible
for them. The policy should also identify a single individual
who holds primary oversight for making sure that all of the
activities are accomplished. The training materials do not
meet this need.

In addition, the training needs to be holistic and involve all
staff with Sunshine Act responsibilities, including Board
members. Often, activities performed by some staff will
have a direct impact on other staff and overall Sunshine Act
compliance. For example, if the Executive Secretaries are
late getting agendas submitted to the Board Office, the
public notice may be delayed resulting in non-compliance.
Consequently, all staff need to be aware of how their
responsibilities fit into the big picture. While the most
important need is for understanding of individual
responsibilities, how those responsibilities work together and
impact one another is also crucial.




                                                  Page 14 of 17
Impact of Delay in      The impact of the delay in developing and implementing
Implementing Previous   these policies and procedures is more than simply not
Recommendations is      having a few documents available on a website. As seen
Significant             during 2005, without a structure and protocol for complying
                        with all of the procedural requirements of the Sunshine Act,
                        important requirements, such as a report to the Congress or
                        General Counsel certifications, are overlooked or forgotten.

                        The impact of operating without these policies and
                        procedures is significant because it can affect both the
                        Board’s level of openness and its access to information. By
                        providing more complete information regarding upcoming
                        meetings and votes and reasons for closing meetings, the
                        Board can better fulfill the Sunshine Act’s objective of an
                        open government that is transparent and accountable to the
                        public taxpayer. Formal policies and procedures help ensure
                        that the Board has a structure and process for deciding on
                        Sunshine Act matters, for making information on its activities
                        known and accessible by the public, and for avoiding issues
                        such as insufficient public notice or missing transcripts of
                        closed meetings.

Recommendations         In light of this continuing and crucial need for formal policies
                        and procedures, we once again recommend that the
                        Executive Officer of the National Science Board:

                           •   Establish and meet milestones for the development of
                               formal policies and procedures to address compliance
                               with the procedural requirements of the Sunshine Act.
                               Once again, the guidance should clearly describe all
                               of the procedural requirements for both open and
                               closed meetings, and should define the various roles
                               and responsibilities of both NSF and Board members
                               and staff involved in Sunshine Act compliance.
                               Additionally, it should detail the necessary time
                               frames within which activities must occur. The
                               guidance should specifically address those
                               requirements for which the Board has had difficulty
                               meeting over the past two years, such as timely public
                               notice and timely production of the Board vote and
                               explanation to close, especially for ad hoc meetings.
                               It may be appropriate to include in such guidance a
                               sample calendar for the events that must both
                               precede and follow a meeting, and a method such as
                               a detailed checklist for ensuring those dates are met.




                                                                            Page 15 of 17
•   Establish and meet milestones for providing holistic
    and ongoing training to all affected staff and Board
    members, both within the Board office and NSF, on
    the new policies and procedures and Sunshine Act
    compliance in general. Such training will ensure that
    individuals who are responsible for and support
    compliance activities understand both the nature of
    those activities as well as their importance to Board
    accountability and openness.




                                              Page 16 of 17
Agency Response

                  The National Science Board reviewed a draft of this report
                  and responded that it is “committed to fully complying with
                  the Government in the Sunshine Act.” In addition, the Board
                  generally agreed with our findings and will take appropriate
                  action.

                  We have attached the Board’s response to this report in its
                  entirety as an appendix.




                                                                   Page 17 of 17
APPENDIX
APPENDIX
